        In June 2007, the USGS procurement office in Reston, VA, urged the HIF to submit an
IDIQ for the most commonly used hydrologic equipment it usually stocked. The IDIQ
solicitation listed 84 pieces of equipment manufactured exclusively by nine separate vendors.
The contracting office, together with the Business Utilization & Development Specialist,
determined that the solicitation should be set aside for small business (see the Department
Acquisition Screening and Review form, DI 1886). Then, without approval, the contracting
office changed the solicitation to a full and open competition because, in their opinion, the lack
of qualified small businesses did not justify a restricted solicitation.

       In June 2008, the nine vendors were awarded IDIQ contracts to fulfill specific line item
requirements; no two vendors bid on or were awarded an order for the same line item. On May
20 and June 4, 2009, in accordance with the USGS Recovery Act project plan, $14.6 million in
Recovery Act funds were incorporated into six of the IDIQ contracts to buy additional
equipment.

        USGS’s approach raises concerns about the Recovery Act goal of fostering maximum
competition. When deciding to use IDIQ contracts, Federal Acquisition Regulation
16.504(c)(1)(ii)(A) says: “The contracting officer must avoid situations in which awardees
specialize exclusively in one or a few areas within the statement of work, thus creating the
likelihood that orders in those areas will be awarded on a sole source basis; however, each
awardee need not be capable of performing every requirement as well as any other awardee
under the contracts.” The above facts and circumstances show that while the intention was to
award the nine IDIQ contracts based upon full and open competition, the specifications were
written in such a manner that full and open competition was not possible. Thus, the contracting
officer did not abide by the Federal Acquisition Regulation. Additionally, USGS failed to
comply with Section 1554 of the Recovery Act that requires “[t]o the maximum extent possible
contracts funded under [the] Act shall be awarded as fixed price contracts through the use of
competitive procedures.”

        The approach also raises concern about the potential for collusive bidding, as none of the
bids on the 84 line items overlapped, and several of the companies had close business
relationships with each other. (We investigated this issue and found no evidence of collusive
bidding for these particular items.)

       If equipment specifications were indeed unique to specific vendors, and the
circumstances fit one of the seven FAR exceptions, USGS should have issued nine separate sole
source agreements or used individual contracts with proper justifications according to Federal
Acquisition Regulation Part 6.3, Other than Full and Open Competition.

       Since justifications for sole source awards were neither prepared nor was Federal
Acquisition Regulation Part 6.3 followed, USGS unknowingly gave the impression the contracts
were awarded under full and open competition. This in turn led to underreporting of
noncompetitive awards, the reporting of which is required under Federal Acquisition Regulation
5.705 for the Recovery Act delivery orders.




                                                                                                     2
Recommendations

We recommend that USGS:

1. Prepare sole source justifications for each of the current and prospective delivery orders
   executed under the nine IDIQ awards that are approved by proper authority.

2. Document in the solicitation file the reason the procurement was not set aside for small
   business although the DI 1886 required that it should have been.

3. Implement the requirements of Federal Acquisition Regulation 5.705 and Recovery Act
   Division A, Title XV, Subtitle D, section 1554 for the Recovery Act-related delivery orders.

4. Conduct future procurements of similar nature in compliance with Federal procurement
   policy.

cc:    Senior Advisor to the Secretary for Economic Recovery and Stimulus
       Assistant Secretary – Policy, Management and Budget
       Director, Office of Acquisition and Property Management
       Director, Office of Financial Management
       U.S. Geological Survey Audit Liaison
       Departmental GAO/OIG Audit Liaison
       Audit Liaison, Office of the Secretary
       Recovery Coordinator, U.S. Geological Survey




                                                                                                  3
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
